& . i? E-Mail Address: 1115 H Street, N.E.
‘ briefs@wilsonepes.com Washington, D.C. 20002
WSO PT

N Web Site: Tel (202) 789-0096
ees www.wilsonepes.com. Fax (202) 842-4896

No. 20-1088

Davip and AMY CARSON, as parents and
next friends of O.C., and TRoy and ANGELA NELSON,
as parents and next friends of A.N. and R.N.,

Petitioners,
v.

A. PENDER MAKIN, in her official capacity as
Commissioner of the Maine Department of Education,

Respondent.

AFFIDAVIT OF SERVICE

I HEREBY CERTIFY that on September 10, 2021, three (3) copies of the BRIEF FOR AMICI
CURIAE THE SOUTHERN CHRISTIAN LEADERSHIP CONFERENCE — MEMPHIS
CHAPTER, REV. VERNON HORNER, DEBORAH L. WOMACK, DEACON GEORGE WOMACK,
AND REV. STEVEN JOINER IN SUPPORT OF PETITIONERS in the above-captioned case were
served, as required by U.S. Supreme Court Rule 29.5(c), on the following:

MICHAEL E. BINDAS MICHAEL K. WHITEHEAD
INSTITUTE FOR JUSTICE JONATHAN R, WHITEHEAD

600 University Street Suite 1730 WHITEHEAD LAW FirM LLC
Seattle, WA 98101 229 S.E. Douglas Street Suite 210
(206) 957-1300 Lee’s Summit, MO 64063

ARIF PANJU JEFFREY THOMAS EDWARDS
INSTITUTE FOR JUSTICE PRETI FLAHERTY

816 Congress Avenue Suite 960 BELIVEAU & PACHIOS, LLP
Austin, TX 78701 One City Center P.O. Box 9546
Kiegy THOMAS WEST Portland, ME 04112
INSTITUTE FOR JUSTICE AARON M. FREY

901 N. Glebe Road Suite 900 Attorney General

Arlington, VA 22203 Sarsu A, FORSTER

Assistant Atiorney General
CHRISTOPHER C. TAUB

Chief Deputy Attorney General
OFFICE OF THE ATTORNEY GENERAL
Six State House Station
Augusta, ME 04333-0006
(207) 626-8800

The following email addresses have also been served electronically:

KELLY J. SHACKELFORD
LEA E, PATTERSON
KEISHA T. RUSSELL
FIRST LIBERTY INSTITUTE
2001 W. Plano Parkway
Plano, TX 75075

arthur.burke@davispolk.com
mbindas@ij.org
sarah.forster@maine.gov
christopher.c.taub@maine.gov
a. WAL

ROBYN DORSEY WILLIS

WILSON-EPES PRINTING COMPANY, INC.
1115 H Street, N.E.

Washington, D.C. 20002

(202) 789-0096

Sworn to and subscribed before me this 10th day of September 2021.

 
   

COLIN CASEY(HOGAN
NOTARY PUBLIC
District of Columbia

My commission expires April 14, 2022.

 
